Audit of the Follow Up on Recommendations
    from Audit Report No. 9-527-96-007
      on USAID/Peru’s Management of
 Non-Emergency Title II Food Aid Programs



        Audit Report No. 1-527-00-003-P
                 May 5, 2000




          Regional Inspector General
                San Salvador
                  U.S. A GENCY FOR
                  INTERNATIONAL
                   DEVELOPMENT

                  RIG/San Salvador


                  May 5, 2000


                  MEMORANDUM

                  FOR:               USAID/ Peru Director, Thomas L. Geiger

                  FROM:              Acting RIG/A/San Salvador, Steven H. Bernstein

                  SUBJECT:           Audit of the Follow Up on Recommendations from Audit
                                     Report No. 9-527-96-007 of USAID/Peru’s Management of
                                     Non-Emergency Title II Food Aid Programs
                                     (Report No. 1-527-00-003-P)

                  This memorandum is our report on the subject audit. In finalizing the report,
                  we considered your comments on the draft report. Your comments on the
                  draft report are included in Appendix II.

                  This report contains three recommendations for your action. Based on the
                  information provided by the Mission, management decisions have been
                  reached on these recommendations. A determination of final action for these
                  recommendations will be made by the Office of Management Planning and
                  Innovation (M/MPI/MIC) when planned corrective actions are completed.

                  I appreciate the cooperation and courtesy extended to my staff during the
                  audit.


     Background   Half of Peru’s 25 million people live in poverty and 15 percent live in
                  extreme poverty. In this country of the size of Alaska, USAID/Peru has
                  focused its approximate $50 million Title II food program in the rural
                  highland and jungle areas where the levels of extreme poverty are the highest.
                  In fiscal year 1999, the USAID/Peru Title II food program distributed,
                  through four cooperating sponsors, $10 million of food commodities to 6,226
                  communities over the entire range of the country.



Page 1 of 10                                                   Audit Report No. 1-527-00-003P
               In September 1996, the USAID Office of Inspector General issued an audit
               report that reviewed USAID/Peru’s Title II food aid program. The audit
               report included 41 recommendations, all having final actions subsequently
               completed by the Mission, including the following seven recommendations
               that are the basis of this audit report:

               Recommendation No. 3.1: We recommend that USAID/Peru establish a plan
               on the minimum cycle of Mission supervisory visit coverage of the
               functional areas within the cooperating sponsors' headquarters and all of
               the cooperating sponsors' field offices. This plan should specify the areas
               to be covered during such visits and require documentation of the proper
               functioning of the sponsors' systems for controlling commodities,
               monetization funds and program income, and for managing for results.

               Recommendation No. 3.2: We recommend that USAID/Peru monitor and
               assess the adequacy of the field supervisions by the cooperating sponsors'
               headquarters. As part of this monitoring, the Mission should routinely
               obtain copies and review the cooperating sponsors' trip reports and
               evaluations, and documentation of follow up done by the cooperating
               sponsors to assure noted problem areas have been corrected.

               Recommendation No. 7.1: We recommend that USAID/Peru establish a joint
               cooperating sponsor committee, with Mission representation, to share
               information on the rates the cooperating sponsors have been able to
               negotiate with their transport agents to move Title II commodities, and to
               coordinate efforts to negotiate for the best rates.

               Recommendation No. 7.2: We recommend that USAID/Peru require
               Caritas to establish and implement a transparent system for procuring
               transport services with Title II monetization funds. This system should
               include procedures for: a competitive bidding system based on price quotes
               from a reasonable number of firms; appropriate consideration and weight
               given to qualifications and experience of firms; an independent, committee-
               based proposal review process; and a contract file system which documents
               selection decisions.

               Recommendation No. 11.1: We recommend that USAID/Peru finalize its
               work with the cooperating sponsors to implement management information
               systems that will include targets for all the intermediate result indicators to
               be tracked by the Mission, and will report reliable information on the
               progress toward the targets.

               Recommendation No. 11.4: We recommend that USAID/Peru ensure that
               the headquarters of each cooperating sponsor establishes procedures to
               check the reliability and timeliness of the data reported by their regional
               units and host country counterparts.


Page 2 of 10                                                Audit Report No. 1-527-00-003P
                       Recommendation No. 11.6: We recommend that USAID/Peru, based on a
                       risk assessment and resource constraints, develop a system that the Mission
                       will follow for periodically verifying the results information reported by
                       the cooperating sponsors.


     Audit Objective   The purpose of this audit is to review continuing Mission actions that justified
                       the closure of these seven recommendations that are essential to (1) Mission
                       Title II food distribution controls and (2) Mission Title II results reporting.

                       Specifically, this audit is intended to answer the following audit objective:

                              Has USAID/Peru continued to take effective corrective
                              actions to justify the closure of Recommendation Nos. 3.1,
                              3.2, 7.1, 7.2, 11.1, 11.4, and 11.6 of Audit Report No. 9-527-
                              96-007, entitled “Audit of USAID/Peru’s Management of
                              Non-Emergency Title II Food Aid Programs,” issued by
                              IG/A/PA on September 20, 1996?

                       Appendix I describes the audit's scope and methodology.



     Audit Findings    Has USAID/Peru continued to take effective corrective actions to
                       justify the closure of Recommendation Nos. 3.1, 3.2, 7.1, 7.2, 11.1,
                       11.4, and 11.6 of Audit Report No. 9-527-96-007, entitled “Audit of
                       USAID/Peru’s Management of Non-Emergency Title II Food Aid
                       Programs,” issued by IG/A/PA on September 20, 1996?

                       For four recommendations, the Mission has continued to take effective
                       corrective actions that justify the closure of these recommendations dealing
                       with program monitoring and supervision, transport logistics, and cooperating
                       sponsor information systems. However, for three recommendations, the
                       Mission still has to take effective corrective actions that would justify their
                       closure. These recommendations require the Mission to: (1) establish a plan
                       on the minimum cycle of supervisory visit coverage by its own staff, (2)
                       ensure that the cooperating sponsors have effective procedures to check the
                       reliability of reported results, and (3) verify results information reported by
                       the cooperating sponsors.

                       Mission Actions Justify the Closure of Four Recommendations

                       For Recommendation No. 3.2, cooperating sponsor field supervision
                       encompasses numerous and varied activities, each cooperating sponsor
                       having unique monitoring systems. Our survey of the design of food



Page 3 of 10                                                         Audit Report No. 1-527-00-003P
               distribution controls and monitoring systems revealed no apparent
               weaknesses. The recommendation stated that the Mission should routinely
               review the cooperating sponsors' trip reports and evaluations as well as
               follow up documentation. Given the vast scope of the Title II program and
               associated work requirements of the Mission’s Title II staff, this is not
               practical. Nonetheless, USAID/Peru staff were cognizant of the cooperating
               sponsors’ monitoring systems and their adequacy. In addition, our review of
               cooperating sponsor monitoring systems at two headquarters offices—
               Adventist Development and Relief Agency (ADRA) and Caritas—as well as
               our field visits demonstrated that the cooperating sponsors had adequate
               monitoring systems.

               For Recommendation No. 7.1, during fiscal year 1999, the ongoing
               cooperating sponsors’ transport committee shared (through a Mission
               memorandum) detailed information on existing transport rates for various
               routes with each of the cooperating sponsors.

               For Recommendation No. 7.2, Caritas has implemented transparent
               procedures for procuring Title II transport services. In November 1996,
               Caritas designated an official transport committee and developed procedures
               for the selection and evaluation of transport companies and their rates.
               Caritas maintained documentation of summaries of the committee meetings.
               In addition, Caritas maintained documentation of the most recent solicitation
               and evaluation of transport during fiscal year 1999. This included newspaper
               advertisements, list of companies responding to the advertisements, files of
               the 17 completed applications with supplementary documentation from each
               transport company, analysis of the qualifications of the transport companies,
               opening of bids, comparison analysis of bids for different routes, and
               decisions.

               For Recommendation No. 11.1, each of the cooperating sponsors has annual
               monitoring and evaluation plans. The fiscal year 1999 plans have sections
               that describe their management information reporting systems for results data
               which is reported against common performance indicators. In addition, each
               cooperating sponsor submits to the Mission an annual results report for
               reporting against a common set of indicators. These performance indicators
               include targets to measure progress.

               Mission Corrective           Actions      Are     Needed        for    Three
               Recommendations

               For Recommendation Nos. 3.1, 11.4, and 11.6, the Mission still has to take
               effective corrective actions that would justify the closure of these
               recommendations. However, instead of reopening the September 1996 audit
               recommendations verbatim, we are rewording and reissuing them as new
               recommendations that consider current circumstances.



Page 4 of 10                                               Audit Report No. 1-527-00-003P
               Recommendation No. 3.1 required the Mission to establish a plan on the
               minimum cycle of supervisory visit coverage by its own staff. At the time of
               the 1996 audit, Mission staff directly overseeing the Title II programs were
               the Food for Peace Officer and three foreign national staff. At the time of our
               current audit, Mission staff consisted of the Food for Peace Officer, three
               foreign national staff who oversaw the cooperating sponsors directly, and two
               other foreign national staff who dedicated part of their time to provide other
               technical supervisory assistance for information systems and micro credit
               programs. Although Mission staffing has provided increased support of the
               Title II programs since 1996, nevertheless, the Mission does not have a plan
               for a minimum cycle of supervisory visit coverage by each of its staff.
               During fiscal year 1999, the amounts of supervisory visits by the Mission
               Title II staff varied considerably. Each of the foreign national staff are on
               contract with annually established work requirements. However, these annual
               work requirements do not establish minimum expectations for site visit
               coverage—an important function of these staff.

                      Recommendation No. 1: We recommend that USAID/Peru establish
                      expectations for minimum site visit coverage for each of its Title II
                      foreign national staff in their annual work requirements.

               Recommendation No. 11.4 required the Mission to ensure that the
               cooperating sponsors have effective procedures to check the reliability of
               reported results. Each of the cooperating sponsors has annual monitoring
               and evaluation plans. The fiscal year 1999 plans have sections that describe
               their management information reporting systems for results data which is
               reported against common performance indicators. These monitoring and
               evaluation plans describe the steps in the results reporting process from
               regional units, which should check the reliability of data. Nevertheless, our
               audit on performance results (Audit of USAID/Peru’s P.L. 480 Title II
               Program Results, Report No. 1-527-00-003-P, May 5, 2000) has identified
               systematic weaknesses in the accuracy of reported results. Nine of the 15
               reported results were inaccurate from all five cooperating sponsors. As such,
               the Mission needs to directly address these shortcomings including the
               procedures within the cooperating sponsors.

                      Recommendation No. 2: We recommend that USAID/Peru ensure
                      that each cooperating sponsor establishes effective procedures to
                      check the reliability of results to be reported to USAID/Peru.

               Recommendation No. 11.6 required the Mission to verify results information
               reported by the cooperating sponsors. The Mission Title II food office does
               not and has not verified data results from the cooperating sponsors.
               Technically, direct data results verification on an annual basis goes beyond
               the requirements of USAID’s Automated Directive System (ADS).



Page 5 of 10                                                Audit Report No. 1-527-00-003P
                    Specifically, ADS E203.5.5 states that “Data quality will be assessed as part
                    of the process of establishing performance indicators and choosing data
                    collection sources and methods. Data quality will be reassessed as is
                    necessary, but at intervals of no greater than three years.” Nevertheless, our
                    audit on performance results has identified systematic weaknesses in the
                    accuracy of the Mission’s Title II reported results, where 9 of the 15 reported
                    results were inaccurate. As such, the Mission needs to directly address these
                    shortcomings via both verification of results and assessments of data sources
                    and methods in the near term and reassessments periodically thereafter. A
                    recommendation for the Mission to perform assessments of its Title II
                    performance indicators is included in the companion results audit report. In
                    regard to verification, the Mission should verify all Title II performance
                    indicator results for the Results Review and Resources Request (R4) already
                    prepared this year, 2000. In addition, the Mission should verify all Title II
                    performance indicator results for the R4 prepared in 2001 prior to issuance.

                           Recommendation No. 3: We recommend that USAID/Peru verify all
                           Title II performance data identified in its R4s prepared in 2000 and
                           2001.

                    Other Issues

                    In addition to the above issues, we identified other findings which were not
                    significant to the audit objective and, thus, are not included in this audit
                    report. These findings were communicated to USAID/Peru by a separate
                    memorandum dated May 5, 2000.


   Management       USAID/Peru agreed with the report and is planning to implement each of the
   Comments and     three report recommendations. Based on the information provided by the
                    Mission, management decisions have been reached on Recommendation Nos.
   Our Evaluation
                    1, 2, and 3.




Page 6 of 10                                                     Audit Report No. 1-527-00-003P
                                                                                     Annex I
                                                                                   Page 1 of 2

   Scope and     Scope
   Methodology   The Office of the Regional Inspector General/San Salvador conducted an
                 audit, in accordance with generally accepted government auditing standards,
                 of the continuing Mission actions that justified the closure of seven
                 recommendations from the September 1996 audit report of USAID/Peru
                 management of Title II food aid programs. These seven recommendations
                 are essential to both Mission Title II food distribution controls and Mission
                 Title II results reporting. The audit was conducted at USAID/Peru and five
                 cooperating sponsors (Adventist Development and Relief Agency (ADRA);
                 CARE; Caritas; Proyectos en Informatica, Salud, Medicina, y Agricultura
                 (PRISMA); and TechnoServe) from October 28, 1999 through February 10,
                 2000.

                 In addition to the Mission and the five cooperating sponsor headquarters in
                 Lima, we also visited cooperating sponsor regional or subrecipient offices
                 (and four food warehouses) in Ayacucho, Cuzco, and Juliaca for ADRA;
                 Piura and Cuzco for CARE; Iquitos, Piura, and Tarapoto for Caritas; and
                 Puno for TechnoServe. We also visited 37 project sites (fish pond farm,
                 irrigation channels, children and pregnant mothers nutrition and feeding
                 programs, road building, guinea pig farm, coffee plant nursery, potable water
                 construction, health post construction, chicken farm, endangered tree
                 management, water reservoir rehabilitation, greenhouses, goat farm, and
                 community food warehouses) in 18 communities. Due to both security and
                 logistical restrictions, we could not visit regional offices and community
                 projects according to a random sampling. Nevertheless, our site visits were
                 designed to provide coverage according to several variables including the
                 northern and southern sections of the country, the rural highlands and the
                 jungle (the two principal areas of Title II programs due to the extreme
                 poverty), and different cooperating sponsors—especially ADRA and Caritas
                 who will continue a high level of direct food distribution.

                 Methodology

                 In answering the audit objective, we interviewed officials as well as reviewed
                 and tested documentation at USAID/Peru and the five cooperating sponsors.
                 Such documentation included Mission staffing and organization; maps;
                 annual Mission R4 reports; Mission internal control assessments; USAID
                 Regulation 11; USAID, Bureau, and Mission R4 guidance including USAID
                 Center for Development Information and Evaluation (CDIE) Tip Series
                 Numbers 6, 7, 8, and 12; Bureau guidance for cooperating sponsor annual
                 results reports, historical funding and food distribution data, Mission ledger




Page 7 of 10                                                 Audit Report No. 1-527-00-003P
                                                                                 Appendix I
                                                                                 Page 2 of 2

               for tracking food losses and claims; independent evaluations during 1998 and
               1999; annual cooperating sponsor results reports; annual cooperating sponsor
               monitoring and evaluation plans; quarterly reports (including losses) provided
               by four non-governmental organizations for fiscal year 1999, the most recent
               complete fiscal year; and numerous other internal control documents used by
               the cooperating sponsors to track the warehousing and distribution of food
               commodities. We also reviewed applicable prior Office of Inspector General
               audit reports and summaries; audit reports of cooperating sponsors; and 1997
               correspondence documentation associated with the closure of the
               recommendations from the September 1996 audit report.

               In the case of the three recommendations in which the Mission still has to
               take effective corrective actions, we generally did not assess the cause for the
               lack of continuing Mission actions due to the age of the recommendations
               (approximately 4 years) and intervening staff turnover.

               We also reviewed applicable internal controls to obtain a sufficient
               understanding of the design of relevant internal control policies and
               procedures. The relevant internal controls were limited to the Mission’s and
               cooperating sponsors’ systems for Title II food distribution and the Mission’s
               Title II R4 results reporting.




Page 8 of 10                                                 Audit Report No. 1-527-00-003P
                                   Appendix II
                                   Page 1 of 2




Page 9 of 10   Audit Report No. 1-527-00-003P
                                    Appendix II
                                    Page 2 of 2




Page 10 of 10   Audit Report No. 1-527-00-003P
